OIG Investigative Reports, Bateman Sentenced for Theft of Federal Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U. S. Attorney's Office
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, Georgia 30303
Tel: 404.581.6000  Fax: 404.581.6181
Bateman Sentenced for Theft of Federal Funds
William S. Duffey, Jr., United States Attorney for the Northern District of Georgia, and Lester Fernandez, Special Agent In Charge, Department of Education. Office of Inspector General, announce that DR. ROBBIE BATEMAN, 57, of Charlotte, North Carolina, was sentenced today by United States District Judge Thomas Thrash on charges of embezzlement of Federal Funds. According to Duffey
DR. BATEMAN was sentenced to four years probation, the first six months of which must be served in home confinement, and ordered to pay restitution of $24,622.
DR. BATEMAN was indicted on the charge on June 4, 2002. According to the indictment, and evidence in open court at today's sentencing hearing, from November, 1995, to March, 1998, DR. BATEMAN was, at Clark Atlanta University in Atlanta as the Director of the Federal Title III Program, which provides funding for historically black colleges and universities. During the charged period, DR. BATEMAN misapplied funds entrusted to her as Director, meant for different projects and studies, but instead diverted them to her own use
This case was investigated by Special Agents of the Department of Education.
Assistant United States Attorney David McCleman prosecuted the case
For further information please contact William S Duffey, Jr., United States Attorney or F. Gentry Shelnutt, Chief, Criminal Division, through Patrick Crosby, Public Affairs Officer, U.S. Attorney's Office, at (404) 581-6016. The Internet address for the HomePage for the U.S. Attorney's Office for the Northern District of Georgia is www.usdoj.gov/usao/gan.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov